Appendix to The Petition For A Writ Of Certiorari
TABLE OF CONTENTS
Opinion of the Sixth Circuit Court of Appeals on
Appeal Dated April 1, 2019............................... XXI
Opinion of the United States District Court on
Appeal Dated October 25, 2018.....................

XIII

Oral Opinion of the United States Bankruptcy Court
Dated April 30, 2018
II

I

Oral Opinion of the United States Bankruptcy Court
Dated April 30, 2018
UNITED STATES BANKRUPTCY COURT
EASTERN DISTRICT OF MICHIGAN
NORTHERN DIVISION
THOMAS W. MCDONALD, Plaintiff
Case No. 17-2118
v
WILDFIRE CREDIT UNION, et al,
Defendants.

IN RE: OPINION OF THE COURT
BEFORE THE HONORABLE DANIEL S.
OPPERMAN
TRANSCRIPT ORDERED BY: THOMAS
MCDONALD, JR., ESQ.
Before the Court is defendant Wenzloff and
Wenzloffs PLC’s motion to dismiss which has been
concurred with by co-defendants Paul 15 Wenzloff,
Joshua Fireman, and Wildfire Credit Union.
The plaintiff in this adversary proceeding is
Thomas W. McDonald, the Chapter 13 trustee of
debtor Jonathan Wild and debtor Tamara Moore’s
bankruptcy case prior to its conversion to Chapter 7.
Plaintiff has also filed a motion for partial summary
judgment in this adversary proceeding.
As to jurisdiction, the parties do not agree that
this is a core proceeding. Therefore, the Court can
only have jurisdiction over this proceeding if it is
II

determined to be a Court “related to”, this Chapter 7
bankruptcy case pursuant to 28 USC Section
1334(b).
The Court makes the following findings of fact
in support of its opinion issued here today. Debtors
filed a Chapter 13 bankruptcy case on August 14 -I’m sorry, August 19, 2014.
Their Chapter 13 plan was confirmed on
October 14, 2014.
The facts occurring after
confirmation relevant to the instant
motions pending before the Court today are
summarized succinctly by the District Court for the
Eastern District of Michigan in its March 7, 2018
order denying motion to withdraw reference that I’ll
refer to as the March 7th order.
That order reads in part: “On April 10, 2017,
the debtors filed a post-confirmation motion to
approve a purchase of a 2014 GMC Arcadia to
replace their older automobile that had mechanical
problems.
The trustee approved the request. Id. debtors
then filed an ex parte motion to approve the
purchase, which the Bankruptcy Court granted. Id.
Santander Consumer USA, the creditor who financed
the GMC purchase, then filed a proof of claim. The
defendants objected to the claim, Id. at 3.
The dispute as to the propriety of the trustee’s
approval of the purchase centers on the applicability
of what counsel refer to as “the Fuller order”. The
Fuller order is described as a settlement embedded
in an order in another (entirely separate) case in
which plaintiff and defendant Wenzloff agreed
plaintiff would “advise debtor’s counsel that ex parte
III

motions to purchase contain certain information”. Id
at 4.
Plaintiffs position is that the Fuller order is
not applicable to the Wild matter and did not limit
his discretion 4 in proving the GMC purchase Id.
Defendants have different -- have a different view.
Allegedly defendants filed “their pleadings” in
the bankruptcy matter accusing plaintiff of
misconduct in conjunction with its approval of the
car purchase.
Plaintiff initiated the adversary proceeding on
November 10 15, 2017. Soon thereafter on November
29, 2017, plaintiff filed a motion to withdraw the
reference which was briefed for the District Court.
The District Court entered the March 7 order 14
stating the facts that are cited above and determined
that the reference should not be withdrawn. The
District Court made the following specific findings as
to all counts of plaintiffs complaint consisting of
Counts 1 through 7.
Now turning to the order again, “Counts 1 and
5 - 4, I’m sorry, seek declaratory and injunctive
relief that the Fuller order is not applicable to the In
Re: Wild matter and that plaintiff did not commit
fraud on the Court when he approved the GMC
purchase. Id. at 4 and 9.
On their face these counts raise core
bankruptcy issues. The abuse of process counts,
Counts 1 -- 2, and 3 allege defendants “filed the
pleadings with the ulterior motive of obtaining
money or property from the debtors and/or
bankruptcy estate attempting to pressure debtors to
convert or dismiss their bankruptcy case in an
attempt to slander the trustee and damage his
IV

reputation and in an attempt to create unnecessary
delay and expense in the administration of this
bankruptcy case”, in violation of Rule 9011 thereby
“undermining the whole bankruptcy system or
process”. Id. at 8.
Again, whether Rule 9011 was violated
appears to raise a core bankruptcy law question.
Continuing on with the order, the defamation, liable,
and slander counts, that’s Counts 5 through 8 -- 7 are
unrelated to the debtors’ chapter proceeding other
than they occurred during its administration.
Plaintiff alleges defendants accused him of “wrongful
conduct” involving moral turpitude”, “cast his
character in false light”, accused him of “fraud,
contempt of Court, and collusion of Court” —- let me
try it again. Accused him of “fraud, contempt of
Court, and collusion” and “breached the public trust
in the office of the standing Chapter 13 trustee”. Id.
at 10.
Embedded in his three overlapping defamation
counts, also appear a claim for “false light”, a privacy
tort distinct from defamation. Again, although the
alleged wrongful conduct occurred in the context of a
bankruptcy matter, Counts 5 through 7 assert only
state law claims.
There is also no apparent predicate for the
exercise of federal jurisdiction on the state law
claims between Michigan citizens”.
Continuing on with this Court’s opinion. On the
same day the instant adversary proceeding was filed,
that is November 15, 2017, the debtors converted
their Chapter 13 case to a 6 Chapter 7 case.
On December 7, 2017, the plaintiff in his
capacity of the Chapter 13 trustee filed a final report
V

and account which states in the last paragraph. The
trustee certifies that the foregoing summary is true
and complete and all administrative matters for
which the trustee is responsible have been
completed.
The trustee requests that the trustee be
discharged and granted such relief as may be just
and proper. Dated December 7, 2017, signed by
Thomas McDonald, trustee. And that comes from
Docket number 142 filed in case number 14-21888.
The Chapter 7 trustee, Daniel Himmelspach
filed a report of no distribution on January 17, 2018
after conducting and concluding the first meeting of
creditors on December 13, 2017.
The debtors
received a Chapter 7 discharge on February 21, 2018.
It appears that debtors’ Chapter 7 bankruptcy case
remains open due solely because of this adversary
proceeding.
The Court now turns to a statement of the law
that applies here. As to the standard for a motion to
dismiss and lack of subject matter jurisdiction.
Federal Rule of Civil Procedure 12(b)(1) applicable in
this adversary proceeding through Federal Rule of
Bankruptcy Procedure 7012 states^ “every defense of
law or fact to a claim for relief in any pleading,
whether a claim, counter claim, cross claim, or third
party claim, shall be asserted in a responsive
pleading thereto if one is required except for the
following defenses 7 made at the option of the
pleader may be made by motion.
One, lack of jurisdiction over the subject
matter. A motion making any of these defenses shall
be made before 10 pleading if a further pleading is
permitted.
VI

Turning now to the issue of standing and
mootness.
In order to demonstrate standing
generally a party must meet three elements. One,
actual or threatened injury resulting from the
conduct or action of another. Two, an injury which
can be traced to the challenged conduct or action.
Three, the injury may be redressed by a favorable
decision by the Court. Citing In Re Cormier, 382
B.R. 377, 20 Page 410, a decision from the Western
District of Michigan in 2008, the Bankruptcy Court
there.
“Because standing is jurisdictional a dismissal
for lack of standing has the same effect as a
dismissal for lack of subject matter jurisdiction
under Federal Rule of Civil Procedure 12(b)(1)”.
Stalley ex rel. U.S. v Orlando Regulatory Health
Care System, Inc., 524 Fed 3d 1229, Page 1232, 11th
Circuit case from 2008 which quotes Cone
Corporation v Florida Department of Transportation,
921 F 2d 1190, Page 4 1203, 11th Circuit case from
1991.
Mootness must be examined at every stage of
litigation and is a question of jurisdiction. A case is
moot when the issues presented are no longer live or
the parties lack a legally cognizable interest in the
outcome.” Carras v Williams, 807 F 2d 1286, Page
1289, a 6th Circuit case from 1986 which quotes
Powell v McCormack, 395 US 486, Page 497, a 1969
decision.
“Mootness is a jurisdictional issue because the
jurisdiction in Federal Courts extend only to actual
ongoing cases or controversies”. In Re Meridian
Partners —- Meridian Venture Partners, LLC, 201
Westlaw 6489974 at Page 7, a bankruptcy decision
VII

from the 6th Circuit - Bankruptcy Appellate Panel
for the 6th Circuit from December of 2013 which
quotes Ohio Citizen Action v City of Englewood, 671
F 3d 564, 19 Page 581, a 6th Circuit case from 2012.
And finally - close to finally. Section 11 USC
Section 348(e) states: “conversion of a case under
Section 706, 1112, 1208, or 1307 of this title
terminates the service of any trustee or examiner
that is serving in the case before such conversion”.
Conversion of a case from Chapter 13 to Chapter 7
immediately terminates the service of the Chapter 13
trustee replacing her with a Chapter 7 trustee.
Harris v Viegelahn, 135 Sup Ct 1829, Page 1836, a
2015 decision.
The Harris Court held that a Chapter 13
trustee is barred from providing a typical service of a
Chapter 13 trustee, that is disbursement of
payments to creditors after conversion to Chapter 7.
Id. at 1838. Citing Section 348(e), the Harris Court
concluded that the moment a case is converted to
Chapter 13 -- from Chapter 13 to Chapter 7, the
Chapter 13 trustee is 10 stripped of authority to
provide that service. Id.
Now the standard for the motion to dismiss for
the failure to state a claim. Federal Rule of Civil
Procedure 13 12(b)(6) which is also applicable under
Rule 7012 states^ “every defense in law or fact to a
claim or for relief in any pleading whether a claim,
counter claim, cross claim, or third party claim, shall
be asserted in a responsive pleading thereto if one is
required except that the following defenses may be at
the option of the pleader, made by motion.
Six, failure to state a claim upon which relief
can be granted. A motion brought under 12(b)(6)
VIII

tests the sufficiency of a complaint, Conley v Gibson,
351 US Page 41 and 46, a 1956 decision.
And finally the summary judgment standard.
Federal Rule of Civil Procedure 56 is made
applicable in its entirety to bankruptcy adversary
proceedings by Federal Rule of Bankruptcy
Procedure 7056. 7056(c) provides that summary
judgment is proper if the pleadings, depositions,
answers to interrogatories, and admissions on file
together with the affidavits if any, show that there is
no genuine issue to any material fact and that the
moving party is entitled to judgment as a matter of
law. See, Choate v Landis Tool 7 Company, 46 (sic)
F Sup 774, an Eastern District of Michigan 8 case in
1980.
The moving party bears the burden of proving
the absence of a genuine issue of material fact as to
the central element of the non-moving party’s case.
Street v J.C. Bradford and Company, 886 F 2d 1472,
a 6th Circuit case from 1989 that cites the case of
Celotex Corporation v Catrett, All US 317, a 1986
decision.
The burden then shifts to the non-moving
party once the moving party has met its burden and
the non-moving party must then establish that a
genuine issue of material fact does indeed exist.
Janda v Riley-Meggs Industries, Inc., 764 F 19 Supp
1223, an Eastern District of Michigan case of 1991.
The Court now begins its analysis. The Court
starts and ends with subject matter jurisdiction.
Plaintiff no longer has standing to pursue any counts
of his complaint. Namely, plaintiff cannot satisfy
element one, recalling an actual or threatened injury
resulting from the conduct or action of another.
IX

Plaintiff has initiated this action in his capacity as a
Chapter 13 trustee. His services as a Chapter 13
trustee were terminated on November 15, 2017. As
stated by the United States Supreme Court in
Harris, the Chapter 13 trustee is stripped of
authority to provide any service previously given to
him upon conversion which would include the
authority to bring the instant adversary proceeding.
Thus, plaintiff has no injury, either actual or
threatened, which can result from the conduct of the
defendants in this case and at this time. Even if
plaintiff did have standing to pursue this action,
which this Court concludes he does not, this matter
is moot pursuant to Section 348(e) and the United
States Supreme Court’s decision in Harris.
Counts 1 and 4 are moot because any
determination as to whether the Fuller order should
apply to this case is irrelevant because the main case
is now a Chapter 7 ready to be closed. There is no
longer a live issue as the parties no longer have a
legally cognizable interest in the outcome.
While plaintiff may like an advisory opinion on
this issue, these counts fit the classic definition of
mootness. And this Court does not have jurisdiction
to make this determination.
Regarding Counts 2 and 3, alleging abuse of
process by defendants warranting Rule 9011
sanctions, including the award of sanctions to
plaintiff in his previous capacity as the Chapter 13
trustee, there is longer a live controversy. Plaintiffs
service and his duty to the bankruptcy estate and its
creditors terminated upon conversion to Chapter 7.
Finally, Counts 5 through 7 alleging defamation,
liable, and slander, are personal in nature and
X

involve state law causes of action,
The Court
concludes that these counts never had a connection
with plaintiffs service as a Chapter 13 trustee.
Indeed, the District Court recognized this as well
stating, “there is also no predicate for the exercise of
federal jurisdiction on the state law claims between
Michigan citizens”. And it comes from Page 3 of the
District Court order.
And this Court would note, the damages that
could be recovered by plaintiff in the State Court
causes of action, can and should include any
damages claimed by the plaintiff in his Rule 9011
claims. While not stated previously, the potential for
a double recovery of damages by plaintiff both here
and the 9011 claims, and in State Court for the
defamation, liable, and slander claims, causes this
Court to conclude that since this Court lacks
jurisdiction to hear the state law claims of
defamation, liable, and slander, and if the Court is
incorrect that the Rule 9011 claims are moot, the
doctrine of avoiding duplication of actions mandates
this Court dismiss plaintiffs complaint in this Court
but reserves those claims for a State Court
determination.
And the Court will make a side note at this
time regarding Rule 9011.
Plaintiff makes an
argument that Rule 9011 applies, but that rule is of
no avail here. The 21 day safe harbor provision has
not been met and compliance is an absolute
requirement. Ridder v City of Springfield, 109 F 3d 7
288, Page 296, a 6th Circuit case from 1997.
Here no service of a requisite paper occurred
21 days before plaintiffs pleadings were filed, so
Rule 9011 sanctions cannot be awarded.
XI

Accordingly, this Court does not have subject
matter jurisdiction over this proceeding. The Court
need not further analyze
let me back up.
Accordingly, this Court does not have subject matter
jurisdiction over this proceeding and pursuant to
Rule 20(b) all counts of plaintiffs complaint are
dismissed. The Court need not further analyze
defendants’
motion to dismiss under Rule 20(b)(6) or plaintiffs
motion for partial summary judgment because the
Court holds that dismissal is appropriate under Rule
20(b)(1).
But before this opinion is closed a coda. The
Court suspects the parties may find that the lack of
finality from today’s opinion unsatisfactory. Perhaps
as much as this Court has in reading this -- reaching
this conclusion and giving this opinion today. But
this is a Court of limited jurisdiction.
Also this Court cannot address all ills, wrongs,
or slights perceived by parties and their counsel.
Instead as President Lincoln referenced in his first
inaugural address, this Court asks that all involved
examine past actions, their current stances, and the
future plans of action. And again be touched by the
better angels of our nation.
That’s the completion of the Court’s opinion.

XII

Opinion of the United States District Court on
Appeal Dated October 25, 2018
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
NORTHERN DIVISION
THOMAS MCDONALD, JR.
CHAPTER 13 TRUSTEE
Plaintiff,
Hon. Thomas L. Ludington
v.
Adversary Proceeding:
Case No. 17-02118*dob
PAUL WENZLOFF,
JOSHUA FIREMAN
WENZLOFF & WENZLOFF P.L.C., and
WILDFIRE CREDIT UNION,
Defendants.

ORDER AFFIRMING THE BANKRUPTCY COURT
AND DISMISSING THE APPEAL
Notably, this appeal has little to do with the
Debtors, Jonathan Wild and Tamara Moore, who
are not parties to the adversary proceeding. Indeed,
the Debtors received a Chapter 7 discharge on
XIII

February 13, 2018. Yet the bankruptcy matter
remained open solely because of the instant
adversary proceeding, which continues to roll on.
The appeal is also unrelated to Wildfire Credit
Union’s unsecured claim for $9,391.05, a claim
which is surely exceeded by the cost of litigating the
adversary proceeding, the motion to withdraw the
reference, and now this appeal. The dispute can
succinctly be explained as follows.3 At some point
during the administration of the bankruptcy matter,
creditor’s counsel (Wenzloff) took issue with the fact
that the Chapter 13 Trustee (McDonald) approved
the Debtors’ purchase of a new vehicle.
According to McDonald, Wenzloff accused him
of, among other things, fraud on the court and
failure to observe the proper procedure for handling
the debtors’ post plan confirmation purchase
request. McDonald believed that such accusations
amounted to abuse of process, libel, slander,
defamation, and false light. McDonald then filed an
adversary proceeding against Wenzloff, his law firm
(Wenzloff and Wenzloff L.L.C.), Joshua Fireman
(another attorney at the firm), and the Wildfire
Credit Union (Creditor) (collectively, “Appellees”).
(Case No. 17-02118-dob).4 The Bankruptcy Court
3 The full factual and procedural history up to and including
the adversary proceeding has been briefed multiple times by
each party and reviewed by the Court over the past year. An
exhaustive summary can be found in this Court’s order
denying the motion to withdraw the reference (Case No. 1713858, ECF No. 16).
4 The complaint contains 7 counts alleging abuse of process,
slander, libel, defamation, and false light. As for relief,
Plaintiff asks the court to “strike the entirety of the pleadings,

XIV

dismissed the adversary proceeding based on lack of
standing5, mootness, and lack of subject matter
jurisdiction.
Much like the parties’ skirmish earlier this
year regarding withdrawal of the reference, the
parties largely gloss over the narrow questions
before this Court. Rather than squarely addressing
the grounds the Bankruptcy Court articulated for
dismissing the adversary proceeding, the parties
rehash their disagreement over the propriety of the
debtor’s vehicle purchase and financing, as well as
their displeasure with each other’s behavior. At this
point in the proceedings, they have surely devoted
hundreds of pages of briefing to this task. Because
the questions before this Court on appeal involve no
review of the merits of the underlying claims, the
Court will not return to those issues.
Final orders of a bankruptcy court are
appealable to a federal district court under 28 U.S.C.
§ 158(a). In re Gourlay, 496 B.R. 857, 859 (E.D.
statements and discovery from the record due to their
scandalous, disparaging and unnecessary and untrue nature.”
Id. at 13. He also asks the court to dismiss Defendant’s
allegations in the Chapter 13 matter, award costs and fees, set
aside the Fuller order in its entirety, and impose sanctions.
Finally, Plaintiff seeks punitive damages of $100,000 “to be
distributed as follows^ $50,000 to a charity promoting
bankruptcy education or assistance of the court’s choosing and
$50,000 to the Office of the Chapter 13 Trustee for having
been forced to defend and respond [to] the Pleadings . . .,” and
additional damages for defamation, libel, and slander. Id
5 Because mootness and lack of subject matter jurisdiction are
sufficient to sustain the Bankruptcy Court’s decision, the Court
will not analyze standing.

XV

Mich. 2013). “Th[is] Court reviews bankruptcy
court’s findings of fact for clear error and its
conclusions of law de novo.” Id. (citing AMC Mortg.
Co. v. Tenn. Dep’t ofRevenue, 213 F.3d 917, 920 (6th
Cir.2000)).
Federal Rule of Civil Procedure 12(b)(1) provides for
dismissal for lack of subject matter jurisdiction.
Article III of the United States Constitution
prescribes that federal courts may exercise
jurisdiction only where an actual “case or
controversy” exists. See U.S. Const, art. Ill, § 2. “A
Rule 12(b)(1) motion for lack of subject matter
jurisdiction can challenge the sufficiency of the
pleading itself (facial attack) or the factual existence
of subject matter jurisdiction (factual attack).”
Cartwright v. Garner, 751 F.3d 752, 759 (6th Cir.
2014) (citing United States v. Ritchie, 15 F.3d 592,
598 (6th Cir. 1994)).
Counts I and IV seek declaratory and
injunctive relief that the Fuller order6 is not
applicable to the In re Wild matter and that
Plaintiff did not commit fraud on the court when he
approved the GMC purchase. Id. at 4, 9. The
Bankruptcy Court dismissed these counts based on
mootness. Op. at 11, Bkr. Dkt. 56 (Case No. 1702118-dob).
“A case is moot when the issues presented are
no longer live or the parties lack a legally cognizable
interest in the outcome.” Carras v. Williams, 807
F.2d 1286, 1289 (6th Cir. 1986). Mootness is
6 The Fuller order was allegedly the order establishing the procedure for
approval of post plan confirmation purchases by the debtor. According to
McDonald, Wenzloff accused him of violating the Fuller order.

XVI

jurisdictional because the jurisdiction of federal
courts extends only to actual, ongoing cases or
controversies. Ohio Citizen Action v. City of
Englewood, 671 F.3d 564, 581 (6th Cir. 2012).
As the Bankruptcy Court correctly concluded,
there is no live dispute as to the applicability of the
Fuller order or the propriety of the vehicle purchase.
The Chapter 7 case is closed. The debtors and
creditor were the only parties with a legally
cognizable interests in the outcome of that issue. No
party is presently challenging any disposition of
assets arising out of the Debtors’ purchase of the
new vehicle. In this context, granting purely
declaratory relief would be an advisory opinion.7
The Trustee argues that a mootness exception
applies for “wrongs capable of repetition yet evading
review,” and for issues affecting the public interest.
Br. at 16-17. ECF No. 6. According to the Trustee,
the creditor attempted (apparently unsuccessfully)
to set aside the ex parte order approving the vehicle
purchase. It is unclear how, from the Trustee’s
perspective, this constitutes a “wrong” that ought to
be reviewed by this Court, considering the Appellees
did not succeed in setting aside the purchase. The
Trustee’s desire to discourage similar attempts in
future cases does not constitute a justiciable
controversy, nor does it affect the public interest.
Accordingly, the Bankruptcy Court’s dismissal of
Counts I and IV will be affirmed.
7 The truth or falsity of the alleged defamatory statement would perhaps
be relevant to the defamation counts. This does not, however, create a
live controversy for the purposes of a standalone declaratory judgment
claim.

XVII

The abuse of process counts (counts II and III)
seek sanctions under Federal Rule of Bankruptcy
Procedure 9011. The Bankruptcy Court dismissed
these counts for the same reasons as counts I and
IV, namely the lack of a live controversy. Op. at 11,
Bkr. Dkt. 56. The Bankruptcy Court further
explained that “if the Court is incorrect that the
Rule 9011 claims are moot,” then sanctions are
nevertheless inappropriate because l) sanctions
would be duplicative of the relief sought by the
defamation claims, and 2) the 21-day safe harbor
provision was not met. Id. at 12—13 (emphasis
added). The Trustee takes issue with the latter
conclusion. The Trustee does not, however, advance
any argument regarding mootness or duplication.
Because the Trustee only addresses one of the
Bankruptcy Court’s three independent bases for
dismissal, the Bankruptcy Court’s dismissal of
Counts II and III will be affirmed.
The defamation, libel, and slander counts
(counts WII) are unrelated to the Debtors’ chapter
proceeding other than that they occurred during its
administration. Plaintiff alleges Defendants accused
him of “wrongful conduct involving moral
turpitude,” “cast his character in a false light”,
accused him of “Fraud, Contempt of Court and
collusion,” and “breached the public trust in the
office of the Standing Chapter 13 Trustee.”
Embedded in his three repetitive defamation counts
also appears to be a claim for “false light,” which is
in fact a privacy tort distinct from defamation. The
Bankruptcy Court dismissed these claims for lack of
subject matter jurisdiction. The Trustee did not
challenge that conclusion in his initial brief.
XVIII

However, in his reply brief as well as during
oral argument8 the Trustee did make an
overarching jurisdictional argument. It is difficult to
engage with this argument intelligently because it
is largely unintelligible. It appears to go something
like this: although Appellees are not the one’s suing
the Trustee (he is in fact suing them), their “claims”
against him9 implicate federal subject matter
jurisdiction because he (as the Chapter 13 Trustee)
is an officer of the Court and of the United States.
Thus, anyone who accuses the Trustee of
malfeasance in conjunction with the exercise of his
official duties does so at their peril. Such
accusations must be accorded the legal status of a
claim arising under federal law, and the accuser
must be prepared to substantiate their claims.
Because these “claims” against the Trustee arise
under federal law, this Court has supplemental
jurisdiction over the Trustee’s related state law
claims for defamation.
It seems self-evident that this theory does not
warrant a lengthy analysis. Suffice it to say that the
only legal authority the Trustee offers to support
this argument is inapposite. It involved a lawsuit
8 The Bankruptcy Court held oral argument. This Court did
not.
9 The Trustee’s repeated reference to the “claims” against him
appears to refer to the accusations Appellees made in
conjunction with their unsuccessful attempt to set aside the ex
parte order approving the vehicle purchase. These accusations
apparently include l) that the Trustee did not comply with the
Fuller order in approving the purchase, 2) that he perpetrated
a fraud on the court in doing so, and 3) that he colluded with
the Bankruptcy Judge.

XIX

initiated by the debtor against the Trustee, which is
not the situation at hand. See Reply at 9-11 (citing
In re Heinsohn, 231 B.R. 48 (E.D. Tenn 2000)).
Accordingly, the Bankruptcy Court’s dismissal of
counts V-VII will be affirmed.
Accordingly, it is ORDERED that the Bankruptcy
Court’s order dismissing the adversary proceeding
(Bkr. Dkt. 56, Case No. 17-02118-dob), is
AFFIRMED.
/s/Thomas L. Ludington
United States District Judge
Dated: October 25, 2018

XX

Opinion of the Sixth Circuit Court of Appeals on
Appeal Dated April 1, 2019

NOT RECOMMENDED FOR FULL-TEXT
PUBLICATION
No. 18-2274
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
In re: JONATHAN WILLIAM WILD
TAMERA JEAN MOORE,
Debtors.

THOMAS W. MCDONALD, JR.,
Chapter 13 Trustee,
Appellant,
v.
PAUL E. WENZLOFF, et al.,
Appellees.
ORDER
ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
MICHIGAN

XXI

Before:
Judges.

NORRIS, SUTTON, and COOK, Circuit

Thomas W. McDonald, a Chapter 13 Bankruptcy Trustee
(“Trustee”), appeals the district court’s judgment affirming
the bankruptcy court’s dismissal of the adversary proceeding
that he filed in a Chapter 13 bankruptcy proceeding. The
parties have waived oral argument, and the panel
unanimously agrees that oral argument is not needed. See
Fed. R. App. P. 34(a).
In October 2014, the bankruptcy court entered an
order confirming a Chapter 13 plan for
Jonathan William Wild and Tamera Jean Moore (“the
debtors”). In April 2017, while the Chapter 13 proceeding
was still active, the debtors filed an ex parte motion for an
order granting them authority to finance the purchase of a
vehicle. The Trustee approved the purchase, and the
bankruptcy court entered an order authorizing the purchase.
The debtors then filed a notice informing their creditors of
the post-petition claim by Santander Consumer USA, which
had financed the purchase. One of the debtors’ creditors,
Wildfire Credit Union (“Wildfire”), objected to the post­
petition claim. In subsequent pleadings, Wildfire argued
that the Trustee knowingly violated a settlement agreement
entered in a separate case—In re Woodrow Fuller, No. 1322203 (Bankr. E.D. Mich.)—when he authorized the vehicle
purchase and that the bankruptcy court’s order authorizing
the purchase was based upon the Trustee’s fraud and
misrepresentations.
On November 14, 2017, the Trustee filed an adversary
proceeding against defendants Wildfire; Wenzloff &
Wenzloff, PLC, the law firm representing Wildfire; and Paul
E. Wenzloff and Joshua R. Fireman, the two attorneys
representing Wildfire. He alleged that the defendants made
false allegations against him in the pleadings that they filed
XXII

in the debtors’ Chapter 13 proceeding. The Trustee sought:
an injunction and declaratory judgment stating that the
settlement agreement entered in Fuller could not be enforced
in any other case (Count I) and that the Trustee did not
commit contempt of court or fraud (Count IV); sanctions
under Federal Rule of Bankruptcy Procedure 9011 for filing
pleadings without any evidentiary support and for an
improper purpose (Counts II and III); and damages for
defamation of character (Count V), libel (Count VI), and
slander (Count VII). On November 15, 2017, the debtors
converted their case to a Chapter 7 bankruptcy proceeding.
A different trustee took over the debtors’ Chapter 7 case.
On May 3, 2018, the bankruptcy court dismissed the
Trustee’s adversary proceeding. It found that the Trustee
lost “standing to pursue any counts of his complaint” once
the debtors converted their Chapter 13 case into a Chapter 7
proceeding. Alternatively, the bankruptcy court found that
Counts I through IV were moot. It also found that there was
a “potential for a double recovery of damages by plaintiff
both [on Counts V through VII] and [on] the 9011 claims”
and that, as a result, “the doctrine of avoiding duplication of
actions” required it to dismiss Counts V through VII.
Finally, the bankruptcy court concluded that Rule 9011 did
not apply because “[t]he 21-day safe harbor provision has
not been met and compliance is an absolute requirement.”
The Trustee appealed to the district court, arguing that
the bankruptcy court erred by finding that: (1) he lacked
standing to pursue the adversary proceeding because the
underlying case had been converted to a Chapter 7
proceeding; (2) his claims were moot; and (3) he was not
entitled to sanctions because he did not provide the
defendants a safe harbor under Rule 9011. The district court
affirmed the bankruptcy court’s judgment.
On appeal, the Trustee argues that the district court
erred in finding that he no longer had standing to pursue his
XXIII

adversary proceeding once the debtors’ bankruptcy case was
converted from a Chapter 13 to a Chapter 7 proceeding. The
appellees argue, among other things, that the Trustee has
waived appellate review of the lower courts’ conclusions
regarding mootness, subject-matter jurisdiction, and the
safe-harbor provision and that these conclusions, standing
alone, are sufficient to affirm the bankruptcy court’s
decision.
We review a bankruptcy court’s decision directly, not
the district court’s decision. Mediofactoring v. McDermott
(In re Connolly N. Am., LLC), 802 F.3d 810, 814 (6th Cir.
2015).
Generally, the bankruptcy court’s findings of fact are
reviewed for clear error, and its conclusions of law are
reviewed de novo. Id. However, an appellant forfeits
appellate review of claims that he does not raise in his initial
appellate brief. See Agema v. City of Allegan, 826 F.3d
326, 331 (6th Cir. 2016).
As noted above, in addition to the lack of standing,
the bankruptcy court found that Counts I through IV were
moot.
It also found that “the doctrine of avoiding
duplication of actions mandate [d]” dismissal of Counts V
through VII. The Trustee did not challenge either of these
findings in his initial appellate brief or, for that matter, in his
reply brief, which was filed after the appellees pointed out
the forfeiture. In fact, the Trustee reiterated in his reply brief
that standing was the “sole issue” that he was raising on
appeal. Because the Trustee failed to address the bankruptcy
court’s mootness and duplication-of-actions findings, he has
forfeited appellate review of those dispositive conclusions
and we need not address the standing issue. See id.

XXIV

“a

Accordingly, we AFFIRM the district court’s judgment.

ENTERED BY ORDER OF THE COURT
Deborah S. Hunt, Clerk

XXV

